WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

Leon Oscar Ramirez, Jr., et al.

No. 20-265
v. ConocoPhillips Company, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
1=1 Please enter my appearance as Counsel of Record for all respondents.
El There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

El I am a member of the Bar of the Supreme Court of the United States.
El I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date-

September 3, 2020

(Type or print) Name

Macey Reasoner Stokes
D Mr.

Firm

El Ms.

El Mrs.

111 Miss

Baker Botts L.L.P.

Address

910 Louisiana Street

City & State
Phone

Houston, Texas

713.229.1369

Zip
Email

77002

macey.stokes@bakerbotts.corn

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Jose Alberto Alarcon, Bruce J. Werstak, III

